WAIVER

Supreme Court of the United States

No. 20-7979

‘Talmadge Adib Talib v. Juan Guerrero, et al.
(@etitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
& lam filing this waiver on behalf of all respondents.

O Ionly represent some respondents. J am filing this waiver on behalf of the following
respondent(s):

 

 

Please check the appropriate box:

% Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

© Iam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerks ffice, 1 First Street, NE, Washington, D.C. 20543).
t _ / ”
t

ML
(Type ' print) Name 4 \ EU Le LEU PERL

O Mr. 3 Ms. Mrs. Miss
Seki, Nishimura & Watase, LLP

      
 
 

Signature.

 
 
 

 

Firm
Address 600 Wilshire Blvd., Suite 1250

City & State Los Angeles, CA Zip 90017

Phone _ 213-481-2869 Email __ikeuper@snw-law.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

cc: Talmade Adib-Talib
